Department of Health and Human Services 

                   OFFICE OF 

              INSPECTOR GENERAL 



   NEW YORK STATE CLAIMED 

   UNALLOWABLE COMMUNITY 

    SERVICES BLOCK GRANT 

   RECOVERY ACT COSTS FOR 

     ACTION FOR A BETTER 

                Co~IMUNITY,                          INc. 



 Inquiries about this report may be addressed to the Office ofPublic Affairs at 

                          Public.Affairs@oig.hhs.gov. 





                                                   James P. Edert 

                                              Regional Inspector General 


                                                    September 2013 

                                                     A-02-11-02020 

                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


 BACKGROUND

The American Recovery and Reinvestment Act of2009 (Recovery Act), P.L. No. 111-5,
authorized supplemental appropriations for job preservation and creation, infrastructure
investment, energy efficiency and science, assistance to the unemployed, and State and local
fiscal stabilization. The Recovery Act provided $1 billion to the Community Service Block
Grant (CSBG) program for fiscal years (FY) 2009 and 2010. As with annually appropriated
CSBG funds, Recovery Act funds were to be used to reduce poverty, revitalize low-income
communities, and help low-income Americans. In addition, CSBG services funded by the
Recovery Act were to be provided on or before September 30, 2010.

The CSBG program was re-authorized by the Community Opportunities, Accountability, and
Training and Educational Services Act of 1998 (CSBG Act), P.L. No. 105-285, to provide funds
to alleviate the causes and conditions of poverty in communities. Within the U.S. Department of
Health and Human Services (HHS), the Administration for Children and Families (ACF), Office
of Community Services administers the CSBG program.

The CSBG program funds a State-administered network of more than 1,000 local community
action agencies (CAA) that deliver programs and services to low-income Americans. The CAAs
provide services addressing employment, education, better use of available income, housing,
nutrition and health to combat the causes of poverty. Recovery Act grant funds were intended to
cover additional costs for the same types of services.

By accepting grant awards, States agree to comply with Federal regulations governing the
administration of the grants, including compliance with various cost principles. Section 676(a)
of the CSBG Act requires each State to designate an appropriate State agency to act as the lead
agency for carrying out the State's CSBG activities. In New York State, the Department of State
(the State) administers the CSBG program through the Division of Community Services. ACF
awarded the State $86,780,940 in Recovery Act funds for its CSBG program, which includes 52
CAAs.

Action for a Better Community, Inc. (ABC) is a nonprofit CAA that promotes and provides
opportunities for low-income individuals and families living in upstate New York to become
self-sufficient. The State awarded ABC $2,662,008 in CSBG Recovery Act funds for the period
April 1, 2009, through September 30, 2010.

OBJECTIVE

Our objective was to determine whether the State claimed selected CSBG Recovery Act costs on
behalf of ABC that were allowable under the terms of the grant and applicable Federal
requirements.
 SUMMARY OF FINDINGS

 Of the $1,273,314 in CSBG Recovery Act costs that the State claimed on behalf of ABC and that
 we reviewed, $477,706 was allowable under the terms of the grant award and applicable Federal
 requirements. However, the State claimed $795,608 in costs for services on behalf of ABC that
 were unallowable. The unallowable costs included:

    • 	 $730,817 in unsupported salaries and related costs;

    • 	 $57,349 in unsupported training, education, and delegate agency costs;

    • 	 $4,000 in unallocable consulting costs; and

    • 	 $3,442 in unallowable entertainment costs.

ABC charged these unallowable costs because its internal controls were not adequate to ensure 

that CSBG costs complied with Federal regulations. In addition, the State's procedures for 

monitoring ABC were not sufficient to identify certain deficiencies related to personnel activity 

reporting. 


RECOMMENDATIONS

We recommend that the State:

• 	 refund the Federal Government $795,608 for unallowable costs;

• 	 ensure that ABC improves its internal controls to ensure that its CSBG costs comply with
    Federal regulations; and

• 	 revise its procedures for monitoring to ensure ABC complies with Federal regulations on
    personnel activity reporting.

ACTION FOR A BETTER COMMUNITY, INC., COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, ABC disagreed with our findings. ABC offered
explanations as to why it believed the costs questioned in our initial draft report were allowable
and provided additional documentation that it believed supported these costs.

After reviewing ABC's comments and the additional documentation, we revised our draft
findings and financial disallowance related to salaries and related costs, and delegate agency
costs.




                                                 11
DEPARTMENT OF STATE COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State generally disagreed with our first
recommendation (financial disallowance) and provided documentation that it believed supported
the costs for which it disagreed with our determinations. The State did not indicate concurrence
or nonconcurrence with our remaining recommendations but described the steps it has taken to
ensure that CSBG costs claimed by ABC comply with Federal regulations and its procedures for
monitoring ABC's compliance with Federal regulations on personnel activity reporting.

After reviewing the State's comments and the provided documentation, we maintain that our
findings and recommendations are valid. Specifically, the documentation provided by the State
did not adequately support the questioned costs.




                                              111
                                                   TABLE OF CONTENTS 



INTRODUCTION ................ ........ .......... ........... .............................. ................... ................. ! 


          BACKGROlJND ....................................................................................................... 1 

              The American Recovery and Reinvestment Act ........... ........... .......... ... ........ 1 

              Community Services Block Grant Program ....................... ........................... 1 

              New York State Department of State ..................................... ....................... 1 

              Action for a Better Community, Inc .............................................. ................ ! 

              Federal Requirements for Grantees .............................................................. . 2 


          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2 

               Objective ............................ ................................... .... ..................................... 2 

               Scope..................... ......................................................................................... 2 

               Methodology ........................................................... ....................................... 2 


FINDINGS AND RECOMMENDATIONS ................ ...................................................... 4 


          lJNALLOWABLE COSTS .......................................................................................4 

               Federal Requirements .................................................................................... 4 

               Unallowable Salaries and Related Costs ....................................................... 5 

               Unsupported Training, Education, and Delegate Agency Costs ................... 5 

               Unallocable Consulting Costs ........................................................................ 6 

               Unallowable Entertainment Costs .......... ............................. .......................... 6 


         CAUSES OF lJNALLOWABLE COSTS ................................................................. 6 


         RECOMMENDATIONS ....................... :................................................................... 6 


         ACTION FOR A BETTER COMMlJNITY, INC., COMMENTS AND 

          OFFICE OF INSPECTOR GENERAL RESPONSE ............................................. 6 

              Unallowable Salaries and Related Costs ....................................................... 7 

              Unsupported Training, Education, and Delegate Agency Costs ................... 7 

              Unallocable Consulting Costs ........................................................................ 8 

              Unallowable Entertainment Costs ........................................... ...................... 8 


         DEPARTMENT OF STATE COMMENTS AND 

          OFFICE OF INSPECTOR GENERAL RESPONSE .............................................. 8 

              Unallowable Salaries and Related Costs ....................................................... 9 

              Unsupported Training, Education, and Delegate Agency Costs ................... 10 





                                                                     IV
APPENDIXES

    A: ACTION FOR A BETTER COMMUNITY, INC., COMMENTS

    B: DEPARTMENT OF STATE COMMENTS




                                v
                                      INTRODUCTION 


BACKGROUND

The American Recovery and Reinvestment Act

The American Recovery and Reinvestment Act of2009 (Recovery Act), P.L. No. 111-5,
authorized supplemental appropriations for job preservation and creation, infrastructure
investment, energy efficiency and science, assistance to the unemployed, and State and local
fiscal stabilization. The Recovery Act provided $1 billion to the Community Service Block
Grant (CSBG) program for fiscal years (FY) 2009 and 2010. As with annually appropriated
CSBG funds, Recovery Act funds were to be used to reduce poverty, revitalize low-income
communities, and help low-income Americans. In addition, CSBG services funded by the
Recovery Act were to be provided on or before September 30, 2010.

Community Services Block Grant Program

The CSBG program was re-authorized by the Community Opportunities, Accountability, and
Training and Educational Services Act of 1998 (CSBG Act), P .L. No. 105-285, to provide funds
to alleviate the causes and conditions of poverty in communities. Within the U.S. Department of
Health and Human Services (HHS), the Administration for Children and Families (ACF), Office
of Community Services administers the CSBG program.

The CSBG program funds a State-administered network of more than 1,000 local community
action agencies (CAA) that deliver programs and services to low-income Americans. The CAAs
provide services addressing employment, education, better use of available income, housing,
nutrition and health to combat the causes of poverty . Recovery Act grants funds were intended
to cover additional costs for the same types of services.

New York State Department of State

In New York State, the Department of State (the State) administers the CSBG program through
the Division of Community Services. ACF awarded the State $86,780,940 in Recovery Act
funds for its CSBG program, which includes 52 CAAs.

Action for a Better Community, Inc.

Action for a Better Community, Inc. (ABC) is a nonprofit CAA that promotes and provides
opportunities for low-income individuals and families living in upstate New York to become
self-sufficient. ABC operates multiple programs to achieve its goals, including CSBG, Head
Start and a home energy assistance program. The State awarded ABC $2,662,008 in CSBG
Recovery Act funds for the period April1, 2009, through September 30, 2010.




                                               1

    Federal Requirements for Grantees

    By accepting grant awards, States agree to comply with Federal regulations governing the
    administration of the grants, including compliance with various cost principles. Section 676(a)
    of the CSBG Act requires each State to designate an appropriate State agency to act as the lead
    agency for carrying out the State's CSBG activities. Section 678D(a)(l)(B) of the CSBG Act
    requires that States receiving CSBG funds ensure that cost and accounting standards of the
    Office of Management and Budget (OMB) apply to a recipient of the funds. Nonprofit CAAs
    are subject to 45 CFR part 74, through which HHS applies the provisions ofOMB Circular A­
    ll 0. Regulations at 45 CFR § 74.27(a) state that the allowability of costs will be determined in
    accordance with 2 CFR part 230, Cost Principles for Non-Profit Organization.

    OBJECTIVE, SCOPE, AND METHODOLOGY

    Objective

Our objective was to determine whether the State claimed selected CSBG Recovery Act costs on
behalf of ABC that were allowable under the terms of the grant and applicable Federal
requirements.

Scope

We reviewed $1,273,314 ofthe State's claim of$2,507,544 1 for ABC's program expenditures
funded by the Recovery Act award for the period April I, 2009, through September 30, 2010.
This review is part of a series of audits planned by the Office of Inspector General to provide
oversight of funds provided by the Recovery Act. We did not review the overall internal control
structure of the State or ABC. Rather, we limited our review of internal controls to those that
were significant to the objective of our audit.

We performed our fieldwork at the State's offices in Albany, New York, and ABC's offices in
Rochester, New York.

Methodology

To accomplish our objective, we:

       • 	 reviewed applicable Federal laws, regulations, and guidance requirements;

       • 	 interviewed State officials to gain an understanding of the State's procedures for 

           monitoring its CSBG program; 


      • 	 reviewed the State's process and guidelines for monitoring CAAs;
1
 Although, the State awarded ABC CSBG Recovery Act funds totaling $2,662,008, the State only claimed
$2,507,544 of that amount. The claim was for $1,299,465 in salaries and related costs and $1,208,079 in other
direct costs.




                                                        2

     •   reviewed the State's Recovery Act notices of grant award;

     • 	 reviewed the terms and conditions of the CSBG Recovery Act agreement between the
         State and ABC;

     • 	 reviewed the State's FYs 2008 through 2010 monitoring reports of ABC;

     • 	 interviewed ABC officials to gain an understanding of their CSBG program;

     • 	 reviewed ABC's policies and procedures related to the CSBG Recovery Act program;

     • 	 reviewed ABC's independent auditor's reports and its Office of Management and Budget
         (OMB) Circular A-133 audit reports 2 for FYs 2008 through 2010;

     • 	 reconciled ABC's CSBG Recovery Act quarterly expenditures reports to its accounting
         records;

     • 	 judgmentally selected and reviewed 209 transactions totaling $1,273,314 ($896,813 in
         salaries and related costs and $376,501 in other direct costs);

     • 	 reviewed, for the selected transactions, ABC's documentation supporting its expenditures
         incurred under the CSBG Recovery Act agreement;

    • 	 reviewed contracts that ABC entered into with delegate agencies, 3 interviewed the
        representatives from these agencies, and reviewed the agencies' supporting
        documentation for CSBG Recovery Act costs submitted to ABC; and

    • 	 determined whether the expenditures charged to the CSBG Recovery Act agreement were
        allowable and in accordance with Federal requirements.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




2
 Per OMB Circular A-133, §_ .200(a), non-Federal entities that expend $500,000 or more in a year in Federal
awards shall have a single or program-specific audit conducted for that year.
3
 ABC entered into contracts with delegate agencies- private, not-for-profit corporations capable of providing
services to the low-income community- to perform some of its CSBG services.




                                                         3

                           FINDINGS AND RECOMMENDATIONS 


 Of the $1,273,314 in CSBG Recovery Act costs that the State claimed on behalf of ABC and that
 we reviewed, $477,706 was allowable under the terms of the grant award and applicable Federal
 requirements. However, the State claimed $795,608 in unallowable costs for services on behalf
 of ABC. The unallowable costs included:

    • 	 $730,817 in unsupported salaries and related costs;

    • 	 $57,349 in unsupported training, education and delegate agency costs;

    • 	 $4,000 in unallocable consulting costs; and

    • 	 $3,442 in unallowable entertainment costs.

ABC charged these unallowable costs because its internal controls were not adequate to ensure
that CSBG costs complied with Federal regulations. In addition, the State's procedures for
monitoring ABC were not sufficient to identify certain deficiencies related to personnel activity
reporting.

UNALLOWABLE COSTS

Federal Requirements

Section 3(a) of the Recovery Act states that the purposes of the Recovery Act were, among other
things, to preserve and create jobs and promote economic recovery; assist those most impacted
by the recession; and stabilize State and local government budgets to minimize and avoid
reductions in essential services.

Division A, Title VIII, of the Recovery Act provided additional CSBG funds to States for
carrying out activities under sections 674 through 679 ofthe CSBG Act. Section 672 of the
CSBG Act states that the purposes and goals of the CSBG program are to reduce poverty,
revitalize low-income communities, and empower low-income families and individuals in rural
and urban areas to become fully self-sufficient.

Pursuant to 2 CFR § 230.20(b), all cost reimbursement subawards (subgrants, subcontracts, etc.)
are subject to those Federal cost principles applicable to the particular organization concerned.

Federal cost principles (2 CFR part 230, Appendix A, section A.2.g.) state that to be allowable
under an award, costs must be adequately documented.

Regarding the allocability of costs, Federal cost principles (2 CFR part 230, Appendix A,
section A.4.) state:

   a. 	 A cost is allocable to a particular cost objective, such as a grant ... in accordance with the
        relative benefits received. A cost is allocable to a Federal award if it is treated


                                                  4

            consistently with other costs incurred for the same purpose in like circumstances and ir
            it:
                (1) Is incurred specifically for the award.
                (2) Benefits both the award and other work and can be distributed in reasonable
                    proportion to the benefits received .. ..

    Pursuant to 2 CFR part 230, App. B, section 8(m), the distribution of salaries and wages to
    awards must be supported by personnel activity reports which reflect an after-the-fact
    determination of the actual activity of each employee. 4

    Pursuant to 2 CFR part 230, App. B.14, entertainment costs and any costs directly associated
    with such costs (such as tickets to shows or sports events) are unallowable.

    Unallowable Salaries and Related Costs

    The State claimed $730,817 in CSBG Recovery Act funds for salaries and related costs charged
    by ABC that were not supported by after-the-fact determination of the actual activity of each
    employee. 5 According to ABC's policies and procedures manual, employees are required to
    allocate their time by activity. However, ABC could not provide adequate support for a majority
    of the time charged by its employees to the CSBG grant. Although ABC employees reported the
    number of hours worked on their time sheets, which were certified by the employees and their
    supervisors, the time sheets did not specify the ABC activity or program that the employees
    worked on.

    Unsupported Training, Education, and Delegate Agency Costs

The State claimed $40,000 in CSBG Recovery Act funds for beneficiary training and education
costs charged by ABC that were not supported by adequate documentation. ABC contracted
with various community colleges to provide continuing education courses to its beneficiaries.
However, ABC's documentation did not always identify the beneficiaries that attended these
courses. Thus, ABC's documentation was inadequate to support the costs the State claimed.

The State also claimed $17,349 in CSBG Recovery Act funds for delegate agency costs charged
by ABC that were not supported by adequate documentation. ABC's delegate agencies (private,
not-for-profit corporations) were required to.comply with all applicable Federal requirements.
However, ABC did not ensure that costs incurred by the delegate agencies were adequately
supported. 6 Specifically, the delegate agencies' invoices to ABC were not always supported by
vendor receipts or other documentation.


4
  The reports must be signed by the individual employee or by the supervisor that the distribution of activity
represents a reasonable estimate of the actual work performed by the employee during the periods.
5
    This represented more than 80 percent of the salaries and related costs that we judgmentally selected for review.
6
 Neither ABC nor the delegates could provide adequate supporting documentation for the costs claimed by ABC on
behalf of the delegates.




                                                            5

    Unallocable Consulting Costs

    The State claimed $4,000 in CSBG Recovery Act funds for consulting services charged by ABC,
    related to the development of ABC's 2011-2013 strategic plan. These services were unallowable
    because they did not benefit ABC's CSBG program during the award period and therefore
    should not have been allocated to the CSBG Recovery Act grant.

    Unallowable Entertainment Costs

    The State claimed $3,442 in CSBG Recovery Act funds for entertainment expenses charged by
    ABC that were not allowable. Specifically, ABC charged the State for the cost of trips to send
    program beneficiaries to the Seabreeze Amusement Park and a comedy show.

    CAUSES OF UNALLOWABLE COSTS

ABC charged these unallowable costs because its internal controls were not adequate to ensure
that CSBG costs complied with Federal regulations. In addition, the State's procedures for
monitoring ABC were not sufficient to ensure that ABC complied with all applicable Federal
requirements. Specifically, the State's monitoring did not identify ABC's noncompliance with
the Federal regulations on personnel activity reporting.

RECOMMENDATIONS

We recommend that the State:

• 	 refund the Federal Government $795,608 for unallowable costs;

• 	 ensure that ABC improves its internal controls to ensure that its CSBG costs comply with
    Federal regulations; and

• 	 revise its procedures for monitoring to ensure ABC complies with Federal regulations on
    personnel activity reporting.

ACTION FOR A BETTER COMMUNITY, INC., COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, ABC disagreed with our findings. ABC offered
explanations as to why it believed the costs questioned in our initial draft report were allowable
and provided additional documentation that it believed supported these costs. ABC's comments
are included as Appendix A. 7



7
 Attachments to ABC's comments are not included because of their voluminous nature and because some of them
contained personally identifiable information (PII).




                                                      6

 After reviewing ABC's comments and the additional documentation, we revised our draft
 findings and financial disallowance related to salaries and related costs, and delegate agency
 costs.

 Unallowable Salaries and Related Costs

Action for a Better Community, Inc., Comments

ABC stated that the salaries and related costs questioned in our initial draft wer~ supported by
payroll reports signed by a manager or employee that identified the CSBG Recovery Act
program. ABC further stated that timesheets for these individuals included signed statements
that they worked 100 percent of their time on CSBG Recovery Act programs. ABC also stated
that salaries for two employees were incorrectly charged to the CSBG Recovery Act program
and that it had corrected the error. Finally, for one employee, ABC indicated that the employee
was assigned to a program that was fully funded by the CSBG Recovery Act and provided a
timesheet and the worksite agreement to support this.

Office ofInspector General Response

We revised our draft findings and related financial disallowance for the two employees
incorrectly charged to the CSBG Recovery Act grant but subsequently corrected. However, we
maintain that the remaining salaries and related costs were not supported by after-the-fact
determinations of employees' actual activities. ABC's payroll reports did not indicate what
CSBG Recovery Act activities the associated employees worked on and were dated 2 years after
the Recovery Act period ended. Similarly, ABC's timesheets did not specify CSBG Recovery
Act activities and were dated 3 years after the Recovery Act period ended. Finally, the timesheet
that ABC provided to support salaries for the one employee that worked on a program that was
fully funded by the CSBG Recovery Act did not specify a month or year. Accordingly, we could
not determine whether this employee worked on the program during the period of the CSBG
Recovery Act grant.

Unsupported Training, Education, and Delegate Agency Costs

Action for a Better Community, Inc., Comments

In a series of attachments to its comments, ABC submitted invoices and other documentation
related to training, delegate agency, and related costs questioned in our initial draft report.
Among its documentation, ABC provided payroll reports, employee timesheets and other
documentation that included statements signed by employees and supervisors indicating that the
questioned costs were associated with work related to the CSBG Recovery Act program.

Office ofInspector General Response

After reviewing ABC's invoices and other documentation, we revised our draft findings and
related financial disallowance for the delegate agency costs not supported by adequate
documentation.



                                                 7

Most of the documentation that ABC attached to its comments was previously provided and
found to be inadequate. Documentation such as a list ofbeneficiaries scheduled to attend a
training event is not adequate to support ABC's assertion that the beneficiaries actually attended
the training. In addition, the payroll reports, timesheets, and other documentation ABC provided
to support the delegate agency costs did not indicate that the associated employees worked on
CSBG Recovery Act activities. Finally, the signed statements provided were dated 2 years after
the Recovery Act period ended and did not provide contemporaneous evidence of each
employee's actual activity.

 Unallocable Consulting Costs

Action for a Better Community, Inc., Comments

ABC stated the objeGtive ofthe CSBG Recovery Act program was to create and preserve jobs,
and to alleviate the causes and conditions of poverty, and that the consulting costs questioned
were consistent with that objective.

Office ofInspector General Response

We are questioning consulting costs related to the development of ABC's 2011-2013 strategic
plan, which we maintain did not benefit ABC's CSBG Recovery Act program, as the CSBG
Recovery Act award period ended in September 2010. Accordingly, these costs should not have
been allocated to the CSBG Recovery Act grant.

Unallowable Entertainment Costs

Action for a Better Community, Inc., Comments

ABC disagreed with our characterization of costs to send program beneficiaries to an amusement
park and a comedy show as entertainment expenses. Specifically, ABC stated that these costs
were for beneficiaries in CSBG Recovery Act programs and that these trips helped to achieve
one of the programs goals of improving family functioning and parenting skills.

Office ofInspector General Response

We maintain that entertainment costs, such as tickets to shows, are unallowable for Federal
reimbursement (2 CFR pt. 230, App. B.14).

DEPARTMENT OF STATE COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State generally disagreed with our first
recommendation (financial disallowance). The State did not indicate concurrence or
nonconcurrence with our remaining recommendations but described the steps it has taken to
ensure that CSBG costs claimed by ABC comply with Federal regulations and its procedures for
monitoring ABC's compliance with Federal regulations on personnel activity reporting.



                                                8

    The State agreed that $26,000 of the $795,608 recommended disallowance was incorrectly
    claimed but did not concur with the remaining disallowance. Specifically, the State concurred
    with our findings related to unallocable consulting costs ($4,000), unallowable entertainment
    costs ($3,442), and partially agreed with unsupported salaries and related costs ($5,929) and
    unsupported delegate agency costs ($12,629). The State provided documentation that it believed
    supported the costs for which it disagreed with our determinations.

    The State's comments are included as Appendix B. 8

    After reviewing the State's comments and the provided documentation, we maintain that our
    findings and recommendations are valid. Specifically, the documentation provided by the State
    did not adequately support the questioned costs.

    Unallowable Salaries and Related Costs

    Department ofState Comments

The State contended that the majority of the unallowable salaries and related costs were
supported by documentation that complied with Federal regulations (2 CFR part 230, App. B,
section 8(m)), and that the OIG's interpretation of these regulations was fundamentally flawed.
Specifically, the State stated that timesheets and payroll reports previously provided by ABC
sufficiently supported the salaries and related costs charged by ABC, and that the OIG did not
consider this documentation as a whole. Nevertheless, the State provided signed affidavits for
each ABC employee indicating that the employee worked on the CSBG Recovery Act program.
The State contended that, when taken together with the previously provided records, the
affidavits support ABC's costs. Finally, the State cited an HHS Departmental Appeals Board
(Appeals Board) decision9 to support its position that ABC's documentation complied with
Federal regulations.

Office ofInspector General Response

We maintain that the salaries and related costs charged to the CSBG Recovery Act were not
supported by after-the-fact determinations of employee's actual activities. We considered in
totality all documentation -provided as support of the salaries and related costs, and maintain that
ABC's timesheets did not specify CSBG Recovery Act activities. Further, ABC's payroll
reports did not indicate what CSBG Recovery Act activities these employees worked on.
Finally, the affidavits provided by the State were dated 3 years after the Recovery Act period
ended and do not constitute contemporaneous evidence of each employee's activities.




8
  Attachments to the State's comments are not included because of their voluminous nature and because some of
them contained PII.
9
 HHS Departmental Appeals Board Decision No. 2297, Philadelphia Parent and Child Center, Inc., issued
December 31, 2009.




                                                       9

The Appeals Board decision cited by the State to support its position that ABC's documentation
complied with Federal regulations sustained a disallowance of Head Start salaries and related
costs for the same reasons that we questioned ABC's salaries and related costs (i.e., personnel
costs were not supported by after-the-fact determinations of the actual activity of each
employee). Specifically, the Appeals Board stated that payroll reports showing the amount of
salaries charged to different programs did not verify the amount of time the employees actually
spent working on Head Start programs . Further, the Appeals Board stated that it was reluctant to
accept non-contemporaneous documentation as adequate support of personnel costs.

Unsupported Training, Education, and Delegate Agency Costs

Department ofState Comments

The State agreed that $12,629 ofthe delegate agency costs questioned were unsupported;
however, it stated that the remaining delegate agency costs, as well as all of the questioned
training and education costs, were supported by adequate documentation. The State provided
documentation that it believed supported the training and education costs as well as the
remaining delegate agency costs.

Office ofInspector General Response

We maintain that the training, education, and delegate agency costs charged to the CSBG
Recovery Act were not supported by adequate documentation. Most of the documentation that
the State submitted to support these costs was previously provided by ABC and found to be
inadequate. The only new documentation was a letter from the training institution dated 2 years
after the Recovery Act period ended. The letter attested to the authenticity of the institution's
invoices and class lists (i.e., lists of beneficiaries scheduled to attend the institution's training).
However, this documentation does not support ABC's assertion that beneficiaries on the class
lists actually attended the training.




                                                  10 

APPENDIXES 

   APPENDIX A: ACTION FOR A BETTER COMMUNITY, INC., COMMENTS


                                                   ~


                                                  \tt -.-.; -• ~, ll 

                                                ACTION for a BETTER COMMUNITY. INC.
                                                 l}ut!ding New Be innin s or Pco le in Povrrt

    Jerome Underwood                                                                                           James H Nonnan
    Board Chair                                                                                                   Presrtie nt & CEO


                     May 9, 2013


                     James P. Edert 

                     Regional inspector General for Audit Services 

                     Office of Inspector General 

                     Department of Health and Human Services 

                     Office of Audtt Services, Region II 

                     Jacob K. Javits Federal Building 

                     26 Federal Plaza, Room 3900 

                     New York , NY 10278 


                    RE . Report Numbet: A-02- 11 -02020

                    Dear Mr. Edert:

                    This communication is \Vt itten in response to your le tter dated April 18. for which Action
                    for a Better Community, Inc . (ABC) requested and was granted a 15 day extension to
                    respond. This response (filt:d electronically or by hard copy) addresses each of the four
                    areas of propo!>ed disallowance, in the order presented within"the draft audit. Due to the
                    voluminou s nature ofthe supporting documentation, onl y a portion of the very lengthy
                    attachments are being included with the s ubmiss.ion of the hardcopy, while the complete
                    attachments are being submitted electronically

                    I. 	         Unallowable Salaries and Related Costs
                                According to the OIG $731 ,418 costs is proposed for disallowed because the costs
                                were "not supported by after-the-tact determination of the actual activity of each
                                employee, could not provide adequate support for a majority of the time charged
                                by its employees to the CSBG grant, and "the timesheets did not specify the ABC
                                activity or program that the employees worked on".

                                 ABC's Response:
                                •	     Payroll reports were generated which clearly identify the CSBG ARRA
                                       program in the upper left hand corner of each report for the employees
                                       whose salaries are questioned. These reports list all the pay periods
                                       included and are signed by the managers who also signed the timesheets or



 •
0Acoiro7r
                                                                                                          Admm~... ~
                                                                                                          550 f-""1 lolaln 'ilteel
                                                                                                          R~. NcwY<Jd 14()().1
                                                                                                          (585) 325· 5116
                                         A Community Aetion Agency Serving Monroe and Onlllria Counties   fn. (585) 325-911J8
P A , T N E R S H / 1'                                                                                    E-nwJ; CAA@ABCmfo.oog
HlllpltJg P«Jple. Charrging LiWY 	                                                                        W<'lo <it<> ,._ABC"JDfc "'!J
                                                                                                                2

                          by the employees themselves to attest to their accuracy. (Attachment
                          Ali
                  •	                      and ··           two of the employees whose salaries are in
                           question. were originally charged incorrectly to the ARRA pt·ogram. The
                           mistake was corrected in October, 2010, shortly after the program ended,
                           and the fmal financial report was filed. Our payroll records verify this.
                           (Attachment A2)
                 •	       The salary f o r · · · · · is in question. This employ~e was a youth in
                          our Summer Youth program who was assigned to one of the community
                          worksites with which we have a worksite agreement. The summer youth
                          program was fully funded bl ARHA. The timesheet and the worksite
                          agreement for 1              lhas been attached. (Attachment A3)
                 111      Timesheets, with the employee or manager who signed the original
                          timcshcets, to include a signed statement that the timcsheets reflect that
                          the activities for which they worked on during this period was the CSBG
                          ARRA programs. Due to the high volume of documents involved, we are
                          sending only the sample of one employee,                  · ·
                          {Attachment B)2

                 It is important to note that 85% of the employees in the disallowed cost were
                hired specifically and worked exclusively for the CSBG ARRA progra1ns. This
                fact is supported by the job descriptions; the recruitment ads placed for hiring; the
                hiring and termination documents; the payroll records; and the quarterly ARRA
                reports filed to the State. These documents provide overwhelming evidence that
                the employees worked for the CSBG ARRA programs. Most of the doclunents
                were presented to, and reviewed by, the auditors, so they are not included in this
                communication to avoid redundancy. However, the supporting documentation for
                each employee is available upon request.

        II. 	   Unsupported Training, Education, and Delegate Agency Costs
                The two items in this proposed disallowance which include: a) $40,000 of
                beneficiary cost for continuing education classes for which "ABC's
                documentation did not always identify the beneficiaries that attended these
                courses", and b) $18,969 costs incl!rred by ABC's delegate agencies because "the
                delegate agencies' invoices to ABC were not always supported by vendor receipts
                or other documentation".

                ABC's Response:
                a) 	 The $40,000 is related to invoices 212010,3292010, and 612010 from Finger
                     Lakes Community College as identified by OIG. 612010 is a rebilling of
                     3292010 by the college. We are sending the payment history report generated
                     from our accounts payable system, the payment checks front and back, the

       1
         Attached to this hardcopy is an excerpt from attachment AI. The full attachment of 53 pages has been
       submitted electronically.
       2
         Attached to this hardcopy is an excerpt from Attachment B. The full attachment of 21 pages has been
       submitted electronically.                     ·


Office of Inspector General Note-The deleted text has been redacted because it is personally identifiable
information.
                                                                                                        3

               check stubs, and lists of students (beneficiaries) related to each invoice for
               your review. The lists ofstudents are provided by the college when we were
               invoiced. All students are identified by name and student ID# from the
               college's computer system. Both reports are provided here for your review.
               (Attachment C)

           b) 	 The following will detail the supporting documentation provided by ABC's
                delegate agencies, Catholic Charities of the Finger Lakes (CCFL) and
                Pathstone, to support cost incurred for the $18,969 disallowance.
                •	      $5,168.49 ofthe $18,969 was for beneficiary costs incurred by CCFL.
                        CCFL has provided four groups of documents; each group individually
                        supports the assistance for Food, Housing, Medical and Other Services
                        provided to the beneficiaries. The documents include the front and
                        back of checks issued to vendors, the check stubs with the
                        beneficiaries listed, and CCFL's authorizations with approved
                       assistance amounts for each beneficiary. The documentation clearly
                       shows that that the vendors received the payments that were
                       specifically for the beneficiaries. (Attachment Dl-D4) 3
               •	      In addition, CCFL has provided two PDF files of documentations to
                       support the $9,039.40 personnel cost which were disallowed. The
                       documents include the Lotus Notes Calendar o f - one of
                       the staffs' costs disallowed, and payroll job costing reports with the
                       ARRA program identified (CCFL code 705). (Attachment E)4
               •	      PathStone, also provided a certification by the supervisor t h a t ­
                       whose cost of $1 ,931.40 was disallowed, had worked on the CSBG
                       ARRA program. (Attachment F)

 III. 	   Unallocable Consulting Costs
          $4,000 for consulting services to develop ABC's 2011-2013 strategic plan was
          questioned because "they did not benefit ABC's CSBG program during the award
          period".

          ABC's Response:
          The benefit to the ARRA program was creation of employment. As the
          background of the findings states: "The American Recovery and Reinvestment
          Act of2009 authorized supplemental appropriation f"Or job preservation and
          creation, infrastructure investment. ..... " and the CSBG program was "to provide
          funds to alleviate the causes and conditions ofpoverty in communities". The
          $4,000 for consultant services was consistent with these goals and objectives. It
          provided a local resident an employment opportunity during an economic
          downturn when such opportunities were increasingly rare for consultants and at


3
  Attached to this hardcopy is an excerpt from Attachment D1. The full attachment of 426 pages, which
contains Dl- D4, has been submitted electronically.
4
  Attached to this hardcopy is an excerpt from Attachment E. The full attachment of 44 pages has been
submitted electronically. ·
                                                                                            4


         the same time, permit the agency to build capacity by developing a strategic plan.
         The job it created was clearly during the award period.


 IV. 	   Unallowable Entertainment Costs 

         $3,442 was questioned "for entertainment expenses" "to send program 

         beneficiaries to the Seabreeze Amusement Park and a comedy show. 


         ABC's Response: 

         We disagree with the characterization of the costs as entertainment expenses. 

         They are beneficiary costs, which are allowable. 

         •	     The program beneficiaries who went to the Seabreeze Amusement Park
                and a comedy show were participants in the Family Opportunity Created
                Utilizing Support (FOCUS) program, which is a peer-support program
                using the family development model to assist families to achieve greater
               self-sufficiency and obtain/sustain employment.
         •	    One of the program's goals was to improve family functioning skills and
               parenting skills (both CSBG National Performance Indicators), and
               sending families of participants to social events such as the Amusement
               Park helps to achieve this goal. Social events also provide participants a
               non-threatening peer-learning environment to improve social and
               networking skills and enhance their employability.

Please review ABC's response and take into consideration the additional supporting
documentation for consideration as you finalize your audit findings. If you have any
questions or need additional information, please contact me at 585-295-1825 or Anthony
Yeung, CFO, at 295-1721.

 · cerely,


   (ftu, )' "'-----­
ames H. Norman

 C: Anthony Yeung
                                                                                                         Page 1 of 16




             APPENDIX B: DEPARTMENT OF STATE COMMENTS 





 ANDREW M. CUOMO
      GOVERNOR
                                                   *
                                           STATE OF NEW YORK
                                       DEPARTMENT OF STATE
                                         ONE COMMERCE PLAZA
                                        99 WASHINGTON AVENUE 

                                        ALBANY, NY 12231-0001
                                                                                      CESAR A . PERALES
                                                                                        SECRETARY OF STATE 





                                               September 13, 20 13

Mr. James P. Edert
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Inspector General
Office of Audit Services Region II                                                                                  ·.
Jacob K. Javits Federal Building
26 Federal Plaza, Room 3900
New York, N~w York 10278

                      Re:     Resp onse to Draft Audit R.ej)ort Number: A-02-11 -02020

Dear Mr. Edert:                                                                                                     ,,
                                                                                                                        '
        The enclosed document is the response Qfthe New York State Department of State Division of
Community Services (DCS) to the captioned draft audit report entitled Nf:W York State Claimed
Unallowable Community Services Block Grant Recovery Act Costs for Action for a Better Community,
Inc, and datedJuly 2013. As requested in your July 31, 2013letter, DCS's written comments include a
statement of concurrence or nonconcurrence with each recommendation of the draft audit report. For
each concurrence, a statement describing the action taken or planned is included. For each
nonconcurrence, the specific reasons for the nonconcurrence are stated along With a statement of any
alternative corrective action taken or planned is provided.
                                                                                                                    ,.
                                                                                                                    i

       Thank you for your courtesy and attention to this important matter. Should you have any
questions or wish to discuss this matter further, please feel free to contact my office at (518) 474-6740.


                                              Sincerely,

                                                       /s/

                                              Linda M. Baldwin
                                              General Counsel
                                              New York State Department of State


Cc:    Veronica Cruz, Director, Division of Community Services, NYS Department ofState
                                                                                                                    t.
                                                                                                                    i.



                                 WINI.DOS.NY.GOV   •   E-MAIL: INFO@DOS.NY.GOV
                                                                                                                        Page 2 of 16




                                                 STATE OF NEW. YORK
                                             DEPARTMENT OF STATE
                                               ONE COMMERCE PLAZA
    ANDREW M. CUOMO                           99 WASHINGTON AVENUE                                  CESAR A. PERALES
         GOVERNOR                             ALBANY, NY 12231-0001                                   SECRETARY OF STATE




              Response of the New York State Department of State Division of Community Services

           This letter, with attachments, is the response of the New York State Department of State
    Division of Community Services (DCS) to the draft audit report numbered A-02-11-02020, entitled New
    York State Claimed Umillowab/e Community Services Block Grant Recovery Act Costs for Action for a
    Better Community, Inc. and dated July 4013 (hereinafter, Draft Audit Report). 1 DCS's written
    comments include a statement of concurrence or nonconcurrence with each recommendation of the
    Draft Audit Report. For each concurrence, a statement describing the action .taken or planned is
    included. For each nonconcurrence, the specific reasons for the nonconcurrence are stated along with a
    statement of any alternative corrective action taken or planned.

    I.     futroduction.

        The New York State Department of State Division of Community Services (DCS) received
$86,780,940 in Community Services Block Grant funding through the American Recover)' and
Reinvestment Act of 2009 (hereinafter, CSBG ARRA). Prior to awarding CSBG ARRA funds, OCS
conducted individual meetings with each recipient entity, including one with Action for a Better
Community, me. (ABC), provided all federal guidance received by DCS to each recipient entity, and
provided additional instruction and direction to recipient entities. DCS worked with federal, state, and
local entities to assure that the CSBG ARRA funds distributed to Community Action Agencies (CAAs)
and Community Action Programs (CAPs) were used for programs and services designed to reduce
poverty, revitalize low-income communities, and empower low~income families and individuals. DOS
encouraged local entities to focus efforts on job creation, job retention, and the creation of sustainable
economic resources in communities to make meaningful and measurable progress consistent with the
CSBG ARRA goals.
                                                                                                                                   ~·
        Many CAAs used these funds to provide training and career opportunities in fields such as
building trades, home health care, commercial driving, .child care, green technologies and culinary arts.
CAAs and CAPs also used CSBG ARRA funds for summer youth employment programs and to provide
employment supports such as employment-related literacy training, job-related transportation, and
entrepreneurial assistance. DCS administered these funds to facilitate the creation or retention of over
5,300 jobs within the State of New York during the CSBG ARRA funding period. At ABC alone, 273
jobs were created or retained. In addition, ABC reported 1,268 specific positive outcomes in the lives of
low-income persons and families resulting from the use of CSBG ARRA funding. DCS is proud of its
record of success in carrying out its mission of stewardship2 and efficacy in the administmtion and use
of CSBG ARRA funding within New York State.

1
  Please be advised that the Draft Audit Report repeatedly refers to the Community Services Block Grant (CSBG) as the
"Community Service Block Grant" (Draft Audit Report No. A-02-11-02020, at pp. i and 1).
2
 It should be noted that, prior to the HHS OIG audit, DCS disallowed and refunded to the federal government approximately
$70,000 in CSBG ARRA charges made by ABC, based on DCS's prior programmatic and fiscal reviews.

                                                     Page 1 of15
                                                                                                           Page 3 of 16




 II. 	       DCS does not concur with the recommendation that the State refund the Federal Government 

             $795 .608 for purportedly unallowable costs. 


       The Draft Audit Report recommends that the State "refund the Federal Government $795,608 for
unallowable costs" (Draft Audit Report, at 6). The unallowable costs at issue are:

                    • $730,817 in unsupported salaries and related costs;
                    • $57,349 in unsupported training, education, and delegate agency costs;
                    • $4,000 in unallocable consulting costs; and
                    • $3,442 in unallowable entertainment costs.

       For the reasons stated below, DCS does not concur with the validity of facts cited by the HHS
OIG in support of its recommendation, and maintains that the recommendation is not reasonable. Based
on a review of the records relevant to this Draft Audit Report, DCS believes that the fmding of
unallowable costs should be reduced from $795,608 to $25,999.64.

         A. 	The Draft Audit Report's fmding that the State did not sufficiently suooort its claim for $730.817
             in salaries and related costs charged by ABC. and the resulting recommendation ofdisallowance
             and repaym.ent, is not valid on the facts. is unreasonable, and should be removed.

        The Draft Audit Report found that "the State claimed $730,817 in CSBG Recovery Act (CSBG
                                                                                                                       ...
ARRA) funds for salaries and related costs charged by ABC that were not supported by an after-the-fact                 !'
determination of the actual activity of each employee" (Draft Audit Report, at 5). The audit team                      '
considered the records of 50 ABC employees, 48 of whom were paid with CSBG ARRA funds during
the funding period, and disallowed salary and fringe costs associated with 44 of the 50 employees
reviewed. Applying the standards of 2 CFR Part 230, App. B, section 8(m) to those records, the draft
report concludes that ABC "could not provide adequate support for a majority ofthe time charged by its
employees to the CSBG grant" (Draft Audit Report, at 5). DCS does not cone~.

            I. 	 The records sUpplied bv ABC fully satisfy the 2 CFR Part 30 A ppendix B requirements for
                 "Support of Salaries and Wages'? for 4 7 of 50 audited employees.

         The totality of the docwnentation provided by ABC clearly shows that ABC satisfied the
standard of 2 CFR Part 230, App. B, section 8(m) for 47 of the 50 employees reviewed, and that the
recommended disallowance is unreasonable and misplaced. 2 CFR Part 230, Appendix B, Section
8(!11)(2), "S1,1pport of salaries and wages," provides in pertinent part:

                   "Reports reflecting the distribution of activity of each employee must be
                   maintained for all staff members (professionals and nonprofessionals)
                   whose compensation is. charged, in whole or in part, directly to awards ...
                   Reports maintained by non-profit organizations to satisfY these
                   requirements must meet the following standards:

                   (a) The reports must reflect an after-the-fact determination of the actual
                   activity of each employee. Budget estimates (i.e., estimates determined
                   before the services are performed) do not qualifY as support for charges to
                   awards.



                                                   Page 2 oflS

                                                                                                                      .·..
                                                                                                                              Page 4 of 16




                          (b) Each report must account for the total activity for which employees are
                          compensated and which is required in fulfillment of their obligations to
                          the organization.             -

                          (c) The reports must be si~:,rned by the individual employee, or by a
                          responsible supervisory official having firsthand knowledge of the
                          activities pctformed by the employee, that the distribution of activity
                          represents a reasonable estimate of the actual work petformed by the
                          employee during the periods covered by the reports.

                         (d) The reports must be prepared at least monthly and must coincide with
                         one or more pay periods."

                For each of the 47 ABC employees referenced above, the HHS OIG has been provided with the
         following documen~ation from ABC's records;         ·

            (1) Timesheets- For each of these 47 employees. ABC maintained timesheets showing an after-the­
                fact determination of the total activity for which the employees were compensated. The
                timcsheets are signed by the employee and/or the employee's supervisor, are dated, 3 and reflect
                submission on a bi-weekly basis during the CSBG ARRA funding period.

                        The Draft Audit Report's statement that "ABC's timesheets ... were dated 3 years after
                the Recovery Act period ended" is clearly erroneous and contradicted by the record (Draft Audit
                Report No. A-02-11-02020, at 7). The timesheets were dated, signed, and submitted during the
                CSBG ARRA period for each bi-weekly pay period in which work was performed (see, e.g.,
                Affidavit of supervisor                dated August 28, 2013, regarding ABC's CSBG ARRA
                time and activity records for employee                , attached at Exhibit 9). Additionally, the
                record clearly demonstrates that 35 of the 50 ABC employees reviewed were hired, budgeted,
                and performed work exclusively and specifically for the CSBG ARRA award (see Affidavits,
                attached as Exhibits 9 through 55).4


      3
        Although ABC's records include one undated tirnesheet for                  reflecting 35 hours of work, a second
     timesheet-which includes the month and date in the left column, a signature, and a date :;tamp showing the month, date, and
      year ofsubmission ("07/30/2010") during the CSBG ARRA period-denotes 40 hours ofwork on a program fully and solely
     funded by CSBG ARRA. ABC's payroll report for                   shows that he was paid for only the 40 hours of work
     ·reflected QO the second timesheet Therefore, HHS OIG's comment in the Draft Audit Report regarding                 's records
     (stating that "the timesheet that ABC provided to support salaries for the one employee that worked on a program that was
     fully funded by the CSBG Recovery Act did not specif:Y a month or a year" and that "[a]ccordingly, we could not determine
     whether this employee worked on the program during the period of the CSBG Recovery Act grant," (Draft Audit Report, at
     7)) is erroneous in consideration of the records provided and does not warrant the disallowance recommended .
                                                                                                                                         ..i
     4
         DCS is encouraged by an ARRA Audit Report issued to the State of Hawaii in a matter with a similar fact pattern (HHS
     OIG CSBG ARRA Audit Report A-09-11-01014, Hawaii Claimed Unallawable Community Sen; ices Block Grant Costs for
     Hawaii County Economic Opportunity Council's Expenditures Under the Recovery Act, iuly 30, 2012), in which the HHS
     OIG ooncluded as follows:
              ''The $303,964 of allowable salaries and wages for the Council's direct employees was supported with
              timesheets that renected an after-the-filet detennination of the actual time of each employee. Direct
              employees charged 100 percent of their time to the CSBG Recovery Act grant." (Audit Report A-09-11­                        ....
              01014, atp. 4, footnote 3).
     Likewise, .here, the ABC employee timesheets reflect an after-the-fact determination of the actual time ofeach employee, and
     35 ofthe 50 employees reviewed at ABC charged 100 percent of their time to the CSBG ARRA grant (see Affidavits,            -
     attached as Exhibits 9-5~).
                                                Page3 oflS
Office oflnspector General Note-The deleted text has been redacted because it is personally identifiable information.
                                                                                                   Page 5 of 16




 (2) Payroll Reports - For each of these 47 employees, ABC maintained a Payroll Report, updated
     on a bi-weekly basis throughout the CSBG ARRA funding period, showing an after-the-fact
     determination of hours spent specifically on CSBG ARRA activity during each bi-weekly pay
     period. Each Payroll Report is coded in the upper left-hand corner with the program
     activity/element code used by ABC for CSBG ARRA, such as "600035 CSBG ARRA," clearly
     indicating that the employee was allocating time to ABC's CSBG ARRA-funded program (see
     Affidavit of supervisor                dated            2013, regarding ABC's CSBG ARRA
     time and activity records for                             attached as Exhibit 9; see also ABC
     YTD Timesheet Charges by Activity,                    at 5, attached as Exhibit 7). Each Payroll
     Report was contemporaneously produced during the CSBG ARRA funding period (see, e.g.,
     Affidavit of supervisor                dated August 28, 2013, regarding ABC's CSBG ARRA
     time and activity records for employee                attached as Exhibit 9).

             While the Draft Audit Report states that "ABC's payroll reports did not indicate what
    CSBG Recovery Act activities the associated employees worked on," there is no specific binding
    requirement that an "actiVity".must be parsed more narrowly than by the specific funding source
    (i.e., CSBG ARRA), and "CSBG ARRA" was the "activity" noted and separately tracked by the
    Payroll Reports maintained by ABC and submitted to HHS OIG. Therefore, DCS does not
    concur with the Draft Audit Report's factual determination that the payroll reports did not
    indicate what activities the associated employees worked on.

           After the HHS OIG's preliminary audit findings were shared with ABC, ~C asked the
    appropriate supervisors to indicate their prior review and approval of these payroll reports by
    signing them after the fact. Although the payroll reports had been generated contemporaneously
    with the timesheets, the reports were not routinely signed either by the employees or their
   supervisors at the time. Unfortunately, it now appears that the HHS OIG has used this effort by
   ABC to support its claim of unsupported salaries and related expenditures. The Draft Audit
   Report cites the after-the-fact signing of the Payroll Reports as justification for dismissing
   consideration of the reports, rather than considering the later signature as further validation ofthe
   accuracy of the statements made therein. 1bis perceived deficiency has been addressed through
   the submission of affidavits authenticating the payroll reports as well as other previously
   submitted records (see Affidavits, attached as Exhibits 9-55; see also Point II.A.2., below). The
   authenticating affidavits are each sworn to by an ABC supervisor or employee with first-hand
   knowledge of the truth of the contents of the attached payroll report, and state that the attached
   payroll report was "produced during the CSBG ARRA funding period by ABC in .the ordinary
   course of business and provides a true and correct after-the-fact determination of the Employee's
   time spent working on CSBG ARRA-related projects" (see Exhibits 9-55).

(3) Year-To-Date (YTD) Timesheet Charges by Activity - On a monthly basis, at the request of
    the Division of Community SerVice, ABC produced and maintained a report entitled, "YTD
    Timesheet Charges by Activity." This document was an after-the-fact report showing the hours
    worked by each ABC employee on CSBG ARRA activity, along with the corresponding dollar
    value of the labor, and further breaking down the CSBG ARRA activity of each employee by
    underlying CSBG ARRA programmatic task. On a quarterly basis, DCS conducted onsite visits
    to ABC during which DCS analysts reviewed and verified this document using the Timesheets,
    Payroll Reports, physical observations of the conduct of CSBG ARRA programs by ABC
    employees, and interviews with supervisory personnel (see DCS Grantee Services Contact
    Reports (GSCRs) for ABC Site Visit Contact Dates 7/9/09, 10/26/09, 1/27/10, 4/20/10, 7/20/10,
    and 10113/10, attached as Exhibit 3).

                                          Page 4 oflS
                                                                                                                         Page 6 of 16




      (4) CSBG ARRA Full-Time Equivalent (FTE) Reports- On a quarterly basis, ABC was required
          to submit to DCS a Fuli-Time Equivalent (FI'E) Report tracking the various jobs _created and
          jobs retained at ABC with the use of CSBG ARRA funds. The FTE Reports show each employee
          p_aid with CSBG ARRA funds by title, list the budgeted number of CSBG ARRA hours for each ·
          employee, as well as the actual number of hours spent by the employee on CSBG ARRA
          activities. Each quarter, the assigned Division of Community Services Program Analyst traced
          the FTE report submitted by ABC to the YTD Timesheet Charges by Activity Report, the Payroll
          Report, and the Timesheets to verify the information submitted (see, e.g., DCS GSCR, ABC
          CSBd ARRA Site Visit, Contact Date 10/13/10, at FTE Spreadsheet Report, attached as Exhibit
          3).5

      (5) ABC Year-To-Date Timesheet Charges By Employee Report (ABC Employee Summary 

          Time and Activity Report) - ABC also produced a summary report for the CSBG ARRA time 

          period, which documented the time and activity distribution for ABC employees, generally, 

          including employees dedicated to CSBG AlmA activity and those who were not. This document 

          shows the distribution of activities among each employee and further corroborates ABC's 

          tracking and documentation of time and activity as shown in the foregoing documents (see ABC 

          Year-To-Date Timesheet Charges by Empl9yee I ABC Employee Summaty Time and Activity 

          Report, attached as Exhibit 8). 


        In accordance with the requirefl?.ents of 2 CFR Part 230, Appendix B, Section 8(m)(2), the
records discussed above demonstrate: (a) that an after-the-fact determination of the actual activity of
each employee was made; (b) that the total activity of each employee during the applicable CSBG
ARRA period was recorded; (c) that ABC recorded an after-the-fact distribution of each employee's
activity representing a reasonable estimate of the actual work performed by the employee during the
periods covered by the reports, and that the distribution was signed by the employee or responsible
supervisory official having firsthand knowledge of the activities performed by the employee; and (d)
that the reports were prepared at least monthly and· coincided with applicable payroll periods. thus,
ABC has met its burden to "document, with records supported by source documentation, that the costs
were actually incurred and represent allowable costs, .allocable to the grant" (Northstar Youth Servs.•
Inc., HHS Departmental Appeals Board (DAB) No. 1884, at 5 (2003)).

         2. 	 Notwithstanding the sufficiency of the ABC records, DOS is providing after-the-fact 

              affidavits authenticating the critical records maintained by ABC: Timesheets, Pavroll 

              Reports. YTD Timesheet Charges by Activity, and ABC Employee Summary Time and 

             ·Activity Report:
                                                                                                                                    !..
        Recognizing that the HHS OIG audit team did not accept the later signature on the payroll
reports as appropriate after-the-fact support for the time that its employees worked on CSBG ARRA­
related projects, ABC has now submitted to DOS signed affidavits which authenticate the earlier records


s Also included within the attached employees files are the following documents, which provide further substantiation of the
employee's work on the CSBG ARRA program: (1) a position listing showing the employee's position on ABC's approved ·
CSBG ARRA budget is present for 48 employees; {2) job descriptions are present for 47 employees; {3) employment ads
posted by ABC are present within 43 employee files; (4) a hiring letter or similar document with the CSBG ARRA position
listed is present within 38 employee files; (5) a payroll roster with the ARRA program identified exists within 49 employee
files; (6) employee evaluations are present in 12 employee files; (7) a termination letter or termination document listing the
CSBG ARRA position/title is present in 36 employee files; (8) an employment application is present in 12 ofthe employee
files; and (9) a summeryouth2010 ARRA attestation form is present in 9 of the employee files. (see ABC F;mp. Files,
attached). 	                                                     ·

                                                       Page 5of15
                                                                                                                         Page 7 of 16

                                                                                                                                    :·.




 provided. Additionally authenticated from firsthand knowledge are w~ekly timesheets for each o~ the
 subject employees, as well as YTD Timesheet Charges by Activity and ABC Employee Summary Time
 and Activity Reports. These affidavits are attached hereto as Exhibits 9-55. The HHS Department of
 Appeals Board has previously held in principle that non-contemporaneous affidavits supportive of
 records such as sun1mary time sheets "constitute adequate documentation of wage and salary
 expenditures" <Philadelp.hia Parent and Child Center, HHS DAB No. 2297, at 6 (2009), 2009 WL
 5945460 (H.H.S.)). Accordingly, DCS urges the OIG to reconsider its determination in light of the
 overwhelming documentation showing the appropriate use and disposition of the contested CSBG
 ARRA monies.
                                                                                                                                    4
                                                                                                                                    !,
          3. 	 The HHS QIG Draft Audit Report's inter:pretation and application of 2 CFR Part 230.
               Appendix B. section 8CmX2) is fundamentally flawed . unreasonabl!:l, and ignores the
               deference accorded to states under applicable block grant regulations.   ·

          In its application of2 CFR Part 230, Appendix B, Section 8(m)(2) to ABC's documentation, the
  HHS OIG audit team appears to have required that ABC have one document for each employee that in­
  and-of-itself satisfies subparagraphs (a) through (d) of Section 8(m)(2). Despite the fact that the ABC
· employee timesheets and payroll records were produced concurrently, it is apparent that the HHS QIG
  audit team determined that each document should be considered individually, rather than collectively; as
  a result, the HHS OIG audit team dismissed each document one-by-one as insufficient 6 Employing a
  rigid "single-record" approach, the HHS 010 audit team ignores the intent and rationale for the
  regulation, i.e., that sufficient records be maintained by grilntees to assure that federal funds are paid in
  appropriate amounts to those employees who have actually earned them by working in support of the
  federal award. 7 The untenable and unjust nature of the HHS OIG's current interpretation and application
 of Section S(m) in this Draft Audit Report is obvious: work that was actually done in furtherance of an
 award may be discounted at the significant expense of a not-for-profit despite the existence of
 supporting documentation simply because the documents had not been bound together but, rather, Were
 maintained separately in the .files.

       DCS maintains that the regulatory intent of Section 8(m)(2) is satisfied when a not-for-profit,
such as ABC, produces documentation that, taken together, satisfies the requirements of paragraphs (a)
through (d) above. 8 Instead of searching for one document that satisfies all of the above criteria, DCS

6
  In its response to ABC' s comments on the Draft Audit Report, HHS OIG evaluates each document for .satisfaction ofthe 2
CFR Part 230, App. B, section 8(m) standard individually, dismissing each in turn, and apparently ignoring entirely the Year­
To-Date Timesheet Charges by Activity Report and the FTE Reports, stating:.
           "However,. we maintain that the remaining salaries and related costs were not supported by after-the-fact
           determinations of employees' actual activities. ABC's payroll reports did not indicate what CSBG
           Recovery Act activities the associated employees worked on .... Similarly, ABC's timesheets did not
           specify CSBG Recovery Act activities .... " (Draft Audit Report, at p. 7).
7
  See PartnershiP for Youth and Community Emp owerment, HHS DAB No. 2306, at 13 (2010) (the purpose of2 CFR Part
230, Appendix B, Section 8(m)(2), is "to ensure that salary expenses are properly charged to an award, accurately reflecting
the amount ofemployee time worked in support ofthe federally-sponsored project,")                     .
8
  As noted in the Draft Audit Report, the American Recovery & Reinvestment Act of2009 (ARRA) provided funding to the
Community Services Block Grant (CSBG), to be distributed in the form of block grant funds to the various states, including
the State ofNew York. As stated in the Notice ofGrant award issued to the State ofNew York by the Department of Health
and Human Seivices for the use ofCSBG ARRA funds, the funding was subject to "45 CFR Part 96- Block Grants" (Notice
ofGrant Award, lUIS ACF to DCS, April 14, 2009, attached). 45 CFR Part 96 provides deference to the State in interpreting
the standards applicable to block grant funds it receives, which includes CSBG ARRA funding. Specifically, 45 CFR §
96.50(e) states, in relevant part:

                                                       Page(;oflS
                                                                                                                         Page 8 of 16




    submits that the HHS OIG Audit Team should have considered several payroll documents which, when 

    taken together, easily conStitute the requisite ''report." Such an interpretation is not "clearly erroneous" 

    and should be given deference by the Department of Health and Human Services in reviewiqg and 

    resolving this issue regarding the use of block grant fimds (see 45 CFR §96.50(e)).9 While a single sheet 

    of paper or a bound set of papers may be the preferred method of retention, it cannot be adopted as the 

    threshold used to determine compliance, especially when, as here, determinationS of noncompliance 

    may result in a recommendation of complete disallowance of all payments made to the subject 

    employees where no fraud, waste, or abuse is alleged and where there is no dispute as to whether 

    programmatic services in furtherance of the award were truly rendered. 


            With the addition of 47 new affidavits (attached hereto as Exhibits 9 through 55), the record
    before HHS OIG now unequivocally shows the appropriate disposition of CSBG ARRA monies for 47
    of the 50 audited employees. When taken as a whole, the documentation amply supports a finding that
    these employees were appropriately compensated and that no fraud, waste, or abuse occurred in the
    provision of allowable anti-poverty services. lfHS OIG can and should modifY the primary fmding of
    the Draft Audit Report to reduce the recommended disallowance for unallowable salaries and related
    costs from $730,817.00 to $5,929.17. 10
                                                                                                                                     ',
                                                                                                                                    :'
            4. 	 The HHS OIG's finding of $730.817 in "unallowable" sataries and related costs and
                recommendation of a refimd of the entire amount is unreasonable, inequitable, and
                inconsistent with past HHS practice.

                a. 	 HHS OIG' s recommendation to disallow $730.817 in CSBG ARRA funds without even
                     a cursorv inguirv into the actual salaries that should haye been charged to the award is
                     unreasonable and inequitable.

        The Draft Audit Report's recommendation to disallow $730,817 in CSBG ARRA funds claimed
by the State for salaries and related costs charged by ABC is unreasonable. The HHS OIG has not
alleged that the ABC employees whose timekeeping records are under dispute failed to perform the
work for which they were paid by ABC. Nor has the HHS OIG alleged that ABC failed to perform the
beneficial services for which it received CSBG ARRA funds. There is no evidence or allegation that
ABC or the State intentionally disregarded any federal directive or guidance provided on this matter. In
fact, DCS monitoring reports completed during the applicable funding 'period verifY that services were                              ·'
                                                                                                                                    ·'
           "The Department recognizes that under the block grant programs the States are primarily responsible for
           interpreting the governing statutory provisions. As a result, various States may reach different
           interpretations of the same statutory provisions. This circumstance is consistent with the intent of and
           statutory authority for the block grant programs. In resolving any issue raised by a complaint or a Federal
           audit the Department will defer to a State's interpretation of its assurances IUid of the provisions of the
           block grant statutes unless th,e interpretation is clearly erroneous."
                                                                                                                                    ·~
9
    In addition, there is no record ofany binding guidance l!aving been provided to the New York State Department ofState
Division of Conununity Services before or during the CSBG ARRA funding period that would have imposed or given notice
                                                                                                                                    '
of the strict and formalistic interpretation of2 CFR Part 230, Appendix B, section 8(m)(2) now being advanced by the Draft
Audit Report, nearly three years after the close of the applicable CSBG ARRA funding period.
10
   Two (2) of the SO ABC employees whose salaries and wages were reviewed by the HHS OIG Audit Team were originally
charged incorrectly to the CSBG ARRA funding by ABC, but the mistake was corrected by ABC in October of20 I0. This
was recognized in the recent draft audit report and the disallowance proposed for the two employees                and­
~ was removed (see Draft Audit Report, at 7). One additional ABC employee,                   • was found by DCS to have
been improperly charged to CSBG ARRA as the nature of her work at ABC related to unallowable fundraising costs.
Therefore, the salary and fringe costs attributable to that employee ($5,929.17) should be considered unallowable.
                                                        Page 7 of15
                                                                                                              Page 9 of 16

·~         __
     . .....    ~. 





          satisfactorily performed and indicate that both DCS and ABC were co~sistently acting in good faith to
          comply with their respective responsibilities and to follow the instructions provided to them by the
          Federal Government (see Exhibits 3 and 8, attached) .

                 The recommendation of clisallowance contained in the Draft Audit Report -is umeasonable
         because it is unduly harsh and premature. After conclucling that the salaries for the ABC employees
         discussed above lacked adequate supporting documentation-a conclusion with which DCS clisagrees­
         the HHS OIG made no attempt to determine the correct amount of salaries and fringe that should have
         been charged to the award. Nor clid the HHS OIG recommend any follow-up process that could result in
         an accurate and reasonable resolution of this question, such as a set-aside for ACF resolution. Rather,
         the Draft Audit Report simply and unreasonably rushes to the recommendation of disallowance of the
         entire questioned amounts, implying that none of the questioned salary or fringe paid to the
         aforementioned ABC employees with CSBG ARRA funding should have been charged to the award.
         That conclusion is wrong and belied by the record. Based on ABC's records and the State's monitoring
         of ABC during the CSBG ARRA funding period, it is clear that $0 is not the correct amount of
         questioned salaries and fringe that should have been charged to the award for any of the 47 ABC ­
         employ~s cliscussed above. Therefore, the recommended clisallowance is umeasonable and should be
         revised.

                       b. 	 HHS OIG's recommendation is inconsistent with past HHS practice, which provides for
                            an inquiry into and determination of actual salaries that should have been charged to a
                            CSBG ARRA award .                                             ­                              t:
                                                                                                                         L
                                                                                                                         r
                The Draft Audit Report's recommendation to require the State to refund to HHS, as                        '·

        "unallowable," $730,817 in CSBG ARRA funds charged by ABC for salaries and related fringe is
        inconsistent with the past practice of the HHS OIG in its reviews of such CSBG ARRA charges (see
        Oregon Claimed Some Potentially Unallowable Community Services Block Grant Costs for Multnoinah
        County's Expenditures Under the Recovery Act, Audit Report A-09-11-01013, at pp. 5-6; see also
        Hawaii Claimed Unallowable Community Services Block Grant Costs for Hawaii County Economic
        Opportunity Council's Expenditures Under the Recovery Act, Audit Report A-09-11-01014, at p. 4). In
        the April2013 lUIS OIG Final Audit Report entitled Oregon Claimed Some Potentially Unallowable
        Community Services Block Grant Costs for Multnomah County's Expenditures Under the Recovery Act,
        the HHS OIG found that a not-for-profit recipient of CSBG ARRA funding failed to comply with the
        requirements of 2 CPR part 230, Appendix B, ~ction 8(m) by charging salaries and wages and related
        fringe to CSBG ARRA based only on budgeted estimates of time and effort calculated by the program
        director rather than actual after-the-fact determinations of the actual activity of each employee reflected
        in personnel activity reports (see Audit Report A-09-11-01013, at pp. 5-6). In that matter, the HHS OIG
        stated as follows:                                                                          ­

                   "Because of the use of budget estimates and the lack of adequate supporting
                   documentation, we could not determine the correct amount of salaries and wages that
                   should have been charged to the award. Therefore, we set aside the $49,683 .for ACF
                   resolution" (Audit ReportA-09-11-01013, atp. 5).

        The Final Audit Report further provided:

                   "Because of the lack of adequate supporting documentation, we could not determine the
                  reasonableness of the salary reallocation charged to the award. Therefore, we set as~de
                  the $10,405 for ACF resolution" (Audit Report A-09-11-01013, at p. 5).
                                                        PageS oflS
                                                                                                                                                    Page 10 of 16

.....,: :....: -'..:.0•.<.:-::.·,    ;..·- -..•:0   '   _.._.•.r, - • ·· • ••




                                      Finally, with regard to fringe benefit charges associated with the questioned salaries and wages, the
                                      Audit Report provided:

                                                        "We set aside for ACF resolution the remaining $18,528, which consisted of $14,834
                                                        claimed for Impact Northwest and $3,694 claimed for Human Solutions. These costs
                                                                                                                                                                .•
                                                        related to the set-aside salaries and wages discussed in the previous section" (see Audit
                                                        Report A-09-11-01013, at p. 6; see also Audit Report A-09-11-01013, at Appendix A,
                                                        fmding "$0" in "Unallowable" salaries and wages arid "$0" in "Unallowable" fringe
                                                        benefits).

                                           Similarly, the July 30,2012 HHS OIG final CSBG ARRA Audit Report entitled Hawaii Claimed
                                     Unallowable Community Services Block Grant Costs for Hawaii County Economic Opportunity
                                     Council's Expenditures Under the Recovery Act, provided:

                                                        ••we set aside the remaining $28,796 for ACF resolution because the Council charged
                                                        salaries and wages . for its administrative and program employees based on budget
                                                        estimates instead of charging the costs based on actual activity of each employee. ...
                                                        Although the Council maintained timesheets for each employee, · Council officials
                                                        indicated that the timesheet clerk adjusted the administrative and program employees'
                                                        timesheets to match the Council's budget. In addition, the employees' timesheets did not
                                                        clearly identify which activities were related to CSBG program activities funded under
                                                        the Recovery Act. Therefore, we could not detennine the correct amount of time that
                                                        should have been charged to the award." (Audit ReportA-09-11-01014, at p. 4).

                                             It is puzzling that the same preliminary fmding made in the Draft Audit Report for New York
                                    State would lead HHS OIG to recommend the immediate refund of all associated costs as
                                    "unallowable," while fmal HHS OIG Audit Reports in Oregon (April 2013) and Hawaii (July 2012)
                                    resulted in recommendations that associated salary and fringe be "set aside" for later ACF resolution
                                    with the State. To the extent that the HHS OIG is unwilling to modify the recommended disallowance
                                    from $730,817.00 to $5,929.17, DCS requests that the OIG modify the Draft Audit Report to replace its
                                    recommendation of disallowance and refund with a recommendation to "set aside" the disputed amounts
                                    for later ACF resolution.

                                             B. 	 Th e Dmft Audit Report's finding; that the State's claim for $40.000 in CSBG Recovery Act funds
                                                  for beneficiary training and education costs charged by ABC is not suoported by ad~uate
                                                  documentation, is not valid on the facts, and should be withdrawn.

                                                        DCS does not concur with the Draft Audit Report's finding that:

                                                        "The State claimed $40,000 in CSBG Recovery Act funds for beneficiary training and
                                                        education costs charged by ABC that were not supported by adequate documentation.
                                                        ABC contracted with various commUnity colleges to provide continuing education
                                                        courses to its beneficiaries. However, ABC's documentation did not always identify the
                                                        beneficiaries that attended these courses. Thus, ABC's documentation was inadequate to
                                                        support the costs the State claimed." (Draft Audit Report, at 5 and 8.)

                                            The Draft Audit Report maintains that ABC's documentation did not identify the beneficiaries
                                    that attended the training and education courses. However, documentation provid~d by Finger Lakes

                                                                                             Page9 of15
                                                                                                     Page 11 of 16




 Community College (FLCC) lists and confmns that the beneficiaries attended each of the four CSBG
 ARRA funded courses provided through ABC. The docwnentation provided by FLCC confirms the
 class date, whether the stUdent/beneficiary passed or failed the identified course, and identified ABC as
 the funding source for the course (see Finger Lakes Community College Supporting Records, attached
 as Exhibit 4). This docwnentation, in addition to the ABC records showing the beneficiaries scheduled
 to attend the training event, adequately substantiates the $40,000 in resulting costs claimed for
 beneficiaries who actually attended the event. Accordingly, based on ABC's records and the records
 provided by FLCC, DCS maintains that the $40,000 in resulting costs were fully supported, and that the
 associated recommended refund should be withdrawn.

    C. 	 DCS requests a modi:(is:!ltion in the Draft Audit Report's finding that $17,349 in CSBG 

         Recovery Act funds for delegate a gency costs charged by ABC were not supported by 

         adequate docwnentation and a r.~!l\l~tion in the resulting recommendation. 


        DC~   does not concur with th~ Draft Audit Report's finding that:

        "The State claimed $17,349 in CSBG Recovery Act funds for delegate agency costs
        charged by ABC that were not supported by adequate docwnentation ... Specifically, the
        delegate agencies' invoices to ABC were not always supported by vendor receipts or
        other docwnentation." (Draft Audit Report, at 5.)

        Following notification to DCS of this draft audit finding, the DCS-assigned program analyst and ·
fiscal analyst conducted an in-depth review of additional docwnentation provided from Catholic
Charities, a delegate agency of ABC during the CSBG ARRA funding period. During that review,
additional invoices, landlord statements and other records were reviewed by DCS (see Catholic Charities
Supporting Records, attacheq as Exhibit 5). Based upon a review of these additional records, DCS has
found that $4,720.53 of the delegate agency costs was adequately supported. Accordingly, DCS requests
that the disallowance and recommended refund be reduced from $17,349 to $12,628.47.

        Assuming HHS OIG concurs with the requested reduction, once the Audit Report is finalized,
DCS will issue a notice of disallowance to ABC and require repayment of the amount of the
unallowable costs with which DCS concurs. To the extent that a lwnp swn repayment of $12,628.47
may not be practicable, DCS will negotiate a repayment plan with ABC for the return of these funds to
the federal government.

    D. 	 DCS concurs with the Draft Audit Re port's findin g that $4.000 in CSBG Recovery Act funds for
         consulting services costs charged b y ABC were not allocable to the CSBG ARRA grant.

        DCS concurs with the Draft Audit Report's finding that the use of"$4,000 in CSBG Recovery
Act funds for consulting services charged by ABC, related to the development of ABC's 2011-2013
strategic plan," was not allocable to the CSBG ARRA award. DCS agrees that ''the&e services were
unallowable because they did not benefit ABC's CSBG program during the award period and therefore
should not have been allocated to the CSBG Recovery Act grant" (Draft Audit Report, at 6). Although
strategic planning is a foundation of Results Oriented Management and Accountability (ROMA), and a
cornerstone of the CSBG program, DCS concurs upon review that the strategic planning costs incurred
by ABC did not benefit its CSBG ARRA program during the award period. Therefore, DCS concurs
with the Draft Audit Report's recommended disallowance of $4,000. In light of this c9ncurrence, once
the Audit Report is finalized, DCS will issue a notice a disallowance to ABC and require repayment of
the unallowable costs found herein with which DCS concur$. To the extent that a lwnp sum repayment


                                             Page 10of15
                                                                                                           Page 12 of 16




 may not be practicable, DCS will negotiate a repayment plan with ABC for the return of these funds to
 the federal government.

        E. 	 DCS concurs with the Draft Audit RePOrt's finding that $3.442 in CSBG Recovery Act funds 

             were charged by ABC for unallowable entertainment costs-' 


         DCS concurs with the Draft Audit Report's finding that " ... $3,442 in CSBG Recovery Act 

 funds for entertainment expenses charged by ABC" were unallowable (Draft Audit Report, at 6). As 

 noted in the Draft Audit Report, ABC charged the State for the cost of trips to send program 

 beneficiaries to the Seabreeze Amusement Park and a comedy show. DCS agrees that such costs were 

 not allowable under the CSBG ARRA program, and notes that such costs were not expressly authorized 

 by the State. Once the Audit Report is finalized, DCS will issue a notice a disallowance to ABC and 

 require repayment of this unallowable cost. 


 III. 	    The State is continuin g its efforts to ensure that ABC has sufficient internal controls to ensure 

           that its CSBG costs comply with Federal regulations. 


        The Draft Audit Report recommends that DCS ensure that ABC improves its internal controls to
ensure that its CSBG costs comply with Federal regulations. DCS takes issue with this recommendation
insofar as it implies that its monitoring and support of ABC have been deficient. DCS has and continues
to work with ABC to ensure that its internal controls are sufficient to ensure that its CSBG costs comply
with Federal regulations. DCS h.8s a program analyst and a fiscal analyst assigned to monitor and work
with ABC. The program analyst and fiscal analyst each conduct quarterly onsite monitoring visits at
ABC and are in regular contact with ABC. DCS receives and reviews the ABC's federally required
single audit each year, and incorporates any fmdings noted therein into its monitoring plan for ABC.
DCS also provides direct training and technical assistance to ABC, and invests a significant amount of
funding into the New York State Community Action Association, a not-for-profit entity dedicated to
providing training and technical assistance to Community Action Programs and Community Action
Agencies within the State ofNew York.

        On November 6, 2012, DCS provided an information bulletin to all of its CSBG eligible entities
reminding them of the requirements of2 CFR Part 230 Appendix B, section 8(m), and of the importance
of adherence to its standards. Thereafter, DCS program and fiscal analysts provided additional
individualized guidance and assistance to all CSBG eligible entities regarding compliance with the
federal requirements. In addition, a review of time and effort documentation has become a standard
component of onsite visits conducted by DCS. With regard to ABC, DCS's Fiscal Analyst reviewed
ABC's internal controls regarding 2 CFR Part 230, Appendix B, section 8(m) during site visits
conducted on December 13, 2012 and April 30, 2013, at which time ABC's compliance with the                             1'·"

applicable requirements was confirmed.

IV. 	     DCS monitoring procedures. which are reviewed and updated on a continual basis. are extensive
          and sufficient to ensure that ABC complies with Federal regulations on oersolUlel activity
          reporting.

       The Draft Audit Report recommends that DCS revise its procedures for monitoring to ensure
ABC complies with Federal regulations on personnel activi:ty reporting., DeS has had and continues to
have extensive monitoring procedures in place that :;rre stricter than the requirements of the federal
CSBGAct.                       .

                                                                                                                       ·~··


                                                  PagelloflS
                                                                                                      Page 13 of 16




           More specifically, DCS has implemented requirements that exceed those required by the CSBG 

  Act, has been responsive to HHS guidance, and continually engages in thorough onsite moilitoring of 

  grantees. Onsite reviews of all CSBG eligible entities are conducted quarterly, and each agency is 

  assigned both a program analyst and a fiscal analyst. As stated in Point III above, on November 6, 2012, 

  DCS provided an information bulletin to all of its CSBG eligible entities reminding them of the 

  requi:t:ements of 2 CPR Part 230 Appendix B, section 8(m), and of the importance of adherence to its 

  standards. Thereafter, DCS program .and fiscal analysts provided additional individualized guidance and 

  assistance to all CSBG eligible entities regarding compliance with the federal requirements. In addition, 

  a review of time and effort documentation has become a standard component of onsite visits conducted 

  by DCS. DCS's Fiscal Analyst reviewed ABC's internal controls regarding 2 CPR Part 230, Appendix 

  B, section 8(m) during site visits conducted on December 13, 2012 and April 30, 2013, at which time 

  ABC's l?Ompliance with the applicable requirements was confirmed. While it is true that DCS and HHS 

  audits have uncovered some recordkeeping ~rrors and a small number of incorrect expenditures of 

  CSBG ARRA funds on the part of ABC, upon careful analysis, these errors affected only a small 

· fraction of the overall funding provided to ABC, and were discovered during the monitoring process. 

  Therefore, the monitoring process did what it was designed to ~o , uncovering errors as required. 


            As stated by HHS OCS in Informational Memorandum No. 112 entitled Risk Assessment for FY              >'

    2009 (States) CSBG ARRA Funds, "Because States do not receive additional funds for monitoring or
   administrative activities, the process of assessing and mitigating risks of inappropriate expenditures with
   CSBG funds must be a partnership between Federal, State, and local agency levels of the Community
   Action Network with shared accountability and responsibility for internal controls at all organizational
   levels." During the CSBG ARRA funding period, which ended on September 30, 2010, numerous
   monitoring procedures and review standards were employed by DCS, which included the following
   activities and processes in relation to ABC: (1) a Departm.ent of State executive work group conducted
   a series of individualized face-to-face planning meetings with ABC and all CSBG eligible entities that
   were to receive CSBG ARRA funding to discuss each entity's proposed work plan and budget in detail
   prior to DCS approval; (2) DCS's assigned program analyst and assigned fiscal analyst reviewed and
   commented on ABC's proposed work plan and budget; (3) in September of2009, DCS forwarded ABC
   the HHS OCS Informational MemorandUm #112 entitled "Risk Assessment for FY 2009 CSBG ARRA
   Funds" along with a risk assessment chart for completion and submission to DCS; (4) an agency­
  specific CSBG ARRA risk assessment was completed by ABC in October of 2009 and submitted to
  DCS in accordance with HHS ACF Informational Memorandun1 #112 (the Risk Assessment submitted
  by ABC accurately stated that "the agency's most recent external audit demonstrates proper controls are         ':!;
  in place"); (5) the CSBG ARRA risk assessment was used by the program and fiscal analyst in
  structuring the monitoring process for ABC; (6) a CSBG ARRA Monitoring Checklist was created and
  used by DCS for all site visits during the CSBG ARRA funding period; (7) the assigned DCS program
  analyst conducted onsite reviews at ABC for quality assurance purposes ;md compliance with CSBG                 ., 

  ARRA on July 8-9, 2009, October 26,2009, January 20,2010, January 27 and 28,2010, April20, 2010, 

  July 20, 2010, July 27, 2010, and October 13, 2010; (8) the assigned DCS fiscal analyst reviewed the 

· three most recent A-133 audits for ABC and prior CSBG fiscal monitoring summaries for ABC in 

  October of2009 to assess risks during the CSBG ARRA funding period; and (9) the assigned DCS fiscal 

  analyst conducted in-person and onsite reviews of ABC in relation to CSBG ARRA complianC'e on 

  December 22, 2009, January 26-27, 2010, May 4, 2010, July 29-30, 2010, November 16, 2010, and 

  December 14,2010 (see, e.g., DCS Fiscal Field Reports for ABC CSBG ARRA Site Visits, attached as 

 Exhibit 6).                                                                              .




                                               Page 12 of15
                                                                                                       Page 14 of16




     V. 	      Conclusion.

       .    Critical to any examination or audit to determine the proper expenditure and disbursement of
    government funds is truth seeking: that the funds were, in fact, spent for the intended purposes. By
    relying on an extraordinarily restrictive and narrow reading of federal record keeping requirements and
    erroneous factual determinations, the Draft Audit Report disregards this core inquiry. The Draft Audit
    Report not only fails to consider records which, in their totality, unequivocally demonstrate appropriate
    employee compensation and the honest and efficient provision of anti-p<)verty services, but, having
    concluded that a single record was necessary to demonstrate compliance, the Report ~explicably
    .r:ecommends a refund of all " unallowed" monies, without any inquiry or fact finding as to which salaries
    were actually attributable to the services provided.

           A careful examination ofthe support documentation provided with this response, along with the
    comparison of decisions of the HHS Department Appeals Board in similar cases, amply support a
    modification of the findings and recommendations contained in tbe Draft Audit Report. Accordingly,
    DCS respectfully requests that the HHS OIG modify the recommendations contained in its Draft Audit
    Report to reflect unallowable costs of$25,999.64, thereby reducing the associated re~mmended refund
    from $795,608 to $25,999.64.

    VI. 	      List of Exhibits.

        1. 	    .HHS OIG Draft Audit Report, New York State Claimed Unallowable Community Services
                  Block Grant Recovery Act Costs for Action for a Better Community, Inc., as provided on July
                  31, 2013 (A-02-11-02020);
        2.      Notice of Grant Award, CSBG ARRA, HHS ACF to DCS, dated April14, 2009;
        3. 	    DCS Grantee Services Contact Rep~rts (GSCRs) for ABC CSBG ARRA Site Visits, Contact
                  Dates 7/9/09, 10/26/09, 1/27/10, 4/20/10, 7/20/10, and 10/13/10;
        4.      Finger Lakes Community College (FLCC) Supporting Records;
        5.      Catholic Charities Supporting Records;
        6. 	    DCS Fiscal Field Reports for ABC CSBG ARRA, Contact Dates of 12/22/09, 1126-27/10,
                  5/4/10,7/29-30/10, 11/16/10, and 12/14/10;
        7.      ABC Year-To-Date Timesheet Charges By Activity Report;
        8.      ABC Year-To-Date Timesheet Charges by Employee Report (ABC Employee Summary Time

        9.

        10.

        11.

        12.

        13.

        14.

        15.

        16.


                                                Page 13 ofl5 

Office of Inspector General Note-The deleted text has been redacted because it contains personally identifiable 

information. Exhibits 9 through 55 contain signed employee affidavits.
                                                                                     Page 15 of 16

-.... -c..~--'   - ·-. ....!• -· - - · - -··-·\   •   -   - . .....




                                     24.

                                     25.
                                                                                                   ,.

                                    26.
                                                                                                   '
                                    27.

                                    28.

                                    29.

                                    30.

                                    31.

                                    32.

                                    33.

                                   3.4.

                                   35.

                                   36.

                                  37.
                                                                                                 ··­,
                                  38.

                                  39.

                                  40.

                                  41.


                                                                      Page 14 of15
                     Page 16 of 16




45.

46.
                                 -
47.

48.

49.

50.

51.

52.

53.

54.

55.




      Page 15 of15
